                      CLOSEOUT FOR M95050021
                                                          -
- - --
     This case came to O I G on May 3 1 , 1995, when Dr.
           a program officer in NSFrs -       '    A
                                      ad received allegations of
                                    (the complainant) of 0
                                    inant had received a roposal
                                      (the subject) of
                                     at the subject reputedly stole
w e a s . The complainant recounted an incident in which the
subject had allegedly misappropriated the ideas of Dr.
           (the colleague). The colleague subsequently refused to
supply a reference to the published paper in which the alleged
misconduct took place.       In a subsequent conversation, the
complainant said that she had also heard complaints about the
subjectfs conduct from Dr.                    of the
{m          (the informant).    In a telephone conversation, the
informant supplied O I G with details of his concerns. Neither
complaint included evidence that the alleged wrongdoing involved an
NSF proposal or award.
     Both incidents involved alleged failures by the subject to
credit mathematicians whose work preceded the subjectls and who had
developed ideas similar to the subjectfs. Both the complainant and
the informant stated that it was quite possible that the subject
did not realize that his ideas derived from these sources. Both
noted that when mathematicians rework publicly available ideas they
sometimes lose track of their intellectual debts. The informant
characterized the subject's failure to cite related work in the
literature as inappropriate but did not believe that it was so
serious as to constitute misconduct. O I G concluded that neither
the complainant nor the informant had provided evidence of
misconduct in science involving an NSF proposal or award and that
their accounts of the two incidents indicated that it was unlikely
that misconduct had taken place and, in any event, that it would
not be possible to prove that misconduct had taken place.
     This inquiry is closed and no further action will be taken on
this case.




                           page 1 of 1
